                                                                 Issue Date
                                                                       November 17, 2008
                                                                 Audit Report Number
                                                                          2009-LA-1002




TO:         K. J. Brockington, Director, Los Angeles Office of Public Housing, 9DPH



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the City of Los Angeles, Los Angeles, California, Did
           Not Adequately Conduct Housing Quality Standards Inspections

                                    HIGHLIGHTS

 What We Audited and Why

      We reviewed the Housing Authority of the City of Los Angeles’ (Authority) housing
      quality standards policies and procedures for its Section 8 Housing Choice Voucher
      program based on the Authority’s prior notification to the U.S. Department of Housing
      and Urban Development’s (HUD) Office of Inspector General (OIG) for Audit of
      problems with some of its inspectors. Furthermore, the Authority’s having received poor
      scores on two of five housing quality standards indicators for 2006 under HUD’s Section
      Eight Management Assessment Program further warranted review.

      The objective of the audit was to determine whether the Authority adequately enforced
      HUD’s housing quality standards.

 What We Found
      The Authority did not adequately enforce HUD’s housing quality standards. Of 68
      program units statistically selected for inspection, 43 did not meet minimum housing
      quality standards, of which 19 were in material noncompliance with housing quality
      standards. Based on our statistical sample, we estimate that over the next year, HUD will
      pay more than $65.6 million in housing assistance on units with material housing quality
      standards deficiencies.
What We Recommend

     We recommend that the Director of HUD’s Los Angeles Office of Public Housing (1)
     require the Authority to implement adequate procedures and controls regarding its
     inspection process to ensure that all units meet HUD’s housing quality standards to
     prevent $65.6 million in program funds from being spent on units that are in material
     noncompliance with the standards and (2) verify and certify that the applicable owners
     have taken appropriate corrective action regarding the housing quality standards
     deficiencies identified during our inspections or take enforcement action.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the Authority the draft report on October 9, 2008, and held an exit
     conference with the Authority on October 22, 2008. The Authority generally disagreed
     with our report.

     We received the Authority’s response on November 7, 2008. The complete text of the
     auditee’s response, along with our evaluation of that response, can be found in appendix
     B of this report.




                                             2
                             TABLE OF CONTENTS

Background and Objectives                                                       4

Results of Audit                                                                5
        Finding: The Authority’s Section 8 Units Did Not Meet Housing Quality
        Standards

Scope and Methodology                                                           12

Internal Controls                                                               14

Appendixes

   A.   Schedule of Funds to Be Put to Better Use                               16
   B.   Auditee Comments and OIG’s Evaluation                                   17
   C.   Schedule of Units in Noncompliance with Housing Quality Standards       25
   D.   Criteria                                                                27




                                              3
                      BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Los Angeles (Authority) was organized as a public housing
authority in 1938 to provide low-cost housing to individuals meeting established criteria. The
Authority is a state-chartered public agency that provides the largest stock of affordable housing
in the Los Angeles area. The Authority gets the majority of its funding from the U.S.
Department of Housing and Urban Development (HUD). Additionally, it has built a number of
key partnerships with city and state agencies, nonprofit foundations, and community-based
organizations, as well as private developers.

In 1975, the Authority implemented the Section 8 program to provide rent subsidies in the form
of housing assistance payments to private landlords on behalf of eligible families. The Section 8
program, funded by HUD, provides housing assistance to extremely low- and very low-income
families, senior citizens, and disabled or handicapped persons. Its objective is to provide
affordable, decent, and safe housing for eligible families, while increasing a family’s residential
mobility and choice. The Authority administers the second largest Section 8 program in the
country.

The Authority has two different types of rental subsidies—tenant-based and project-based
programs. Both programs have similar income-based admission requirements set by HUD.
Households with a tenant-based subsidy have a voucher that allows them to move from one place
to another. Those in the project-based programs live in a building in which the units are
subsidized. Households in the Housing Choice Voucher tenant-based program (program) come
from the Housing Authority’s waiting list of applicants.

HUD’s approved budget authority for the Authority’s program for fiscal years 2005, 2006, and
2007 was $364.7 million, $383.9 million, and $368.6 million, respectively.

The Los Angeles HUD OIG for Audit initiated an audit of the Authority’s program based on the
Authority’s prior notification to the OIG Office of Audit of problems with some of its inspectors.
In addition, the Authority had received a zero for Section Eight Management Assessment
Program indicators #11 – precontract housing quality standards inspections and #12 – annual
housing quality standards inspections for 2006, which indicate prior problems with the
Authority’s meeting HUD’s housing quality standards requirements.

The objective of the audit was to determine whether the Authority adequately enforced HUD’s
housing quality standards.




                                                 4
                                 RESULTS OF AUDIT

Finding: The Authority’s Section 8 Units Did Not Meet Housing
Quality Standards
The Authority did not adequately enforce HUD’s housing quality standards. Of 68 program
units statistically selected for inspection, 43 units did not meet minimum housing quality
standards, and inspectors did not identify 130 deficiencies during the Authority’s latest
inspection. The Authority inspectors did not identify these deficiencies because it did not
implement adequate controls to ensure that all housing quality standards deficiencies were
detected during its inspections. As a result, it did not properly use its program funds, and
program tenants lived in units that were not decent, safe, and sanitary. Based on our statistical
sample, we estimate that over the next year, HUD will pay more than $65.6 million in housing
assistance on units with material housing quality standards deficiencies if inspection procedures
do not improve.



 HUD’s Housing Quality
 Standards Not Met


       From the 36,626 active program units in the Authority’s housing inventory as of January 1,
       2008, we statistically selected 68 units for inspection. The 68 program units were inspected
       to determine whether the Authority ensured that its program units met HUD’s housing
       quality standards. The inspections took place between March 17 and March 28, 2008.

       Of the 68 units inspected, 43 (63 percent) had 318 housing quality standards deficiencies,
       including one unit with 39 deficiencies. Of the 318 deficiencies, 134 deficiencies (42
       percent) in 33 units predated the Authority’s latest inspection, but only four (3 percent) of
       those 134 deficiencies were included in the Authority’s latest inspection report. This means
       that inspectors did not identify 130 deficiencies during the Authority’s latest inspection.
       The following table categorizes the 318 housing quality standards deficiencies in the 43
       units.




                                                 5
        Categories of deficiencies             Number of deficiencies           Number of units affected
      Security                                         43                                 20
      Window                                           42                                 20
      Tub or shower in unit                            41                                 22
      Electrical                                       26                                 15
      Wall                                             24                                 13
      Sink                                             18                                 13
      Fire exits                                       15                                 11
      Ceiling                                          13                                 10
      Floor                                            13                                 9
      Range/refrigerator                               13                                 11
      Ventilation/plumbing                             11                                 7
      Garbage and debris                                9                                 5
      Smoke detectors                                   9                                 6
      Chimney/heating equipment                         8                                 5
      Water heater                                      8                                 5
      Space for preparation, storage,                   6                                 6
      and serving of food
      Crawl vents                                           4                                  4
      Other interior hazards                                4                                  4
      Roof/gutters                                          4                                  4
      Flush toilet in enclosed space                        3                                  3
      Stairs, rails, and porches                            2                                  2
      Exterior surface                                      1                                  1
      Foundation                                            1                                  1
       Total number of deficiencies                        318

         In addition, we considered 19 (28 percent) of the 68 units to be in material noncompliance
         with HUD requirements.1 The materially deficient units had multiple deficiencies per unit
         that predated the Authority’s last inspection (i.e., had existed for an extended period) or
         contained any deficiency noted in a prior inspection that was not corrected, creating unsafe
         living conditions. Overall, we identified 115 deficiencies that predated the Authority’s last
         inspection2 among all 19 units that we deemed materially deficient, including corrosion,
         wood rot, advanced mildew, fixed break away bars on windows, badly worn carpet, and
         peeling paint. By contrast, those units that were not considered to be materially deficient
         had deficiencies such as missing screens on vents, doors off hinges, or missing outlet covers.
         In addition, 2 of the 19 materially deficient units had four deficiencies between them that
         were noted in a prior Authority inspection report but had not been corrected, despite having
         been cited as ―passed‖ on the followup inspections that the Authority conducted four and
         seven months before our OIG inspection.


1
  Our use of the term, ―material noncompliance,‖ primarily refers to deficiencies in the Authority’s prior inspections
and/or inspection process leading to the unit’s unacceptable condition at the time of our inspection.
2
  When the Authority’s inspections were overdue at the time of our inspection, we included deficiencies that the
Authority should have identified before our inspection. This was the case in 2 of the 19 materially deficient units.


                                                          6
     We provided our inspection results to the Authority’s Section 8 inspections manager.
     Appendix C details the deficiencies found in each of the 43 failed units, with an asterisk
     denoting which of the units were determined to be materially deficient.


Types of Violations


     Our inspector identified 41 tub/shower deficiencies in 22 of the program units inspected.
     The following items are examples of tub/shower deficiencies listed in the table:
     advanced mildew around tub/shower, water controls separated from wall by one-fourth to
     one-half inch, glass enclosure off track, missing hot/cold water controls, and missing
     tiles. The following picture is an example of the tub/shower deficiencies identified in the
     program units inspected.




     Tubs were missing the water control knobs and overflow drain covers, and the water
     spouts were separated from the wall.

     In addition, our inspector identified 43 security deficiencies in 20 of the program units
     inspected. The security deficiencies identified included missing strikers, defective or
     missing locks/latches/dead bolts, split doors, door dragging, cracked door glass,
     unauthorized dead bolts, air infiltration, unfit closure, defective door handle, and wood
     rot. The following picture is an example of the security deficiencies identified in the
     program units inspected.




                                               7
Doors were split, allowed air infiltration, and had unfit closures; and door strikers did not
work properly.

Further, our inspector identified 42 window deficiencies in 20 of the program units
inspected. The window deficiencies identified included missing or inoperative
latch/locks, window sill damage, water wood rot, air and/or water infiltration, and
cracked and/or broken glass panes. The following pictures are examples of the window
deficiencies identified in the program units inspected.




Windows were loose/missing, had cracked glass, and allowed air infiltration.

Our inspector identified other deficiencies, including electrical deficiencies such as
exposed electrical wiring, insecure wiring, inoperative sockets, inoperative ground fault
interrupters, main service panel missing safety shields, and missing faceplates; wall
deficiencies such as holes, cracks, exposed framing, peeling paint, water stains, and
defective repairs; inoperable smoke detectors; garbage and debris in and around program
units; loose handrails on stairways; missing screens on outside vents; loose toilet base;
and inoperative ventilation systems both in the kitchen and bathroom. The following
pictures are examples of other deficiencies identified in the program units inspected.



                                          8
Main service panels were missing the interior safety panels, exposing electrical wiring.




Units had evidence of roach infestations.




                                         9
     Garbage, debris, and safety hazards were in and around program units.


Inadequate Controls

     The Authority inspectors did not identify the deficiencies noted above because it did not
     implement adequate controls to ensure that its program units met HUD’s housing quality
     standards. Although the Authority’s written procedures and controls required it to ensure
     that its program units met housing quality standards, it failed to fully implement those
     procedures. The Authority’s Section 8 administrative plan states that the Authority uses
     HUD standards described in the Code of Federal Regulations, HUD inspection manuals,
     and HUD handbooks during its inspections. In addition, the Authority publishes housing
     quality standards training bulletins as needed to establish and clarify policy and
     procedure regarding inspection standards. Our review of the Authority’s training
     bulletins determined that they were sufficient to comply with HUD rules and regulations
     regarding housing quality standards; however, inspectors did not identify a number of
     deficiencies of housing quality standards because they did not follow the Authority’s
     (and, therefore, HUD’s) guidance.

     We noted the Authority is conducting more quality control inspections than HUD
     requires, and its quality control inspector has identified additional deficiencies during his
     quality control review that the inspectors missed during their inspection. However, we
     noted instances where the inspection supervisors who are also responsible for conducting
     quality control reviews may not be adequately noting inspector oversights during their
     quality control reviews. Although there is no indication this is an intentional disregard of
     deficiencies, this may undermine the Authority’s quality control efforts.




                                              10
Conclusion



     The Authority’s tenants were subjected to health- and safety-related deficiencies, and the
     Authority did not properly use its program funds when it failed to ensure that units
     complied with HUD’s housing quality standards. If the Authority implements adequate
     procedures and controls regarding its unit inspections to ensure compliance with HUD’s
     housing quality standards, we estimate that more than $65.6 million in future housing
     assistance payments will be spent on units that are decent, safe, and sanitary. The
     complete explanation of our calculations can be found in the scope and methodology
     section of this report.


Recommendations


     We recommend that the Director of HUD’s Los Angeles Office of Public Housing require
     the Authority to

     1A.     Implement adequate procedures and controls to ensure that all units meet HUD’s
             housing quality standards to prevent $65.6 million in program funds from being
             spent on units that are in material noncompliance with HUD’s standards.

     1B.     Verify and certify that the owners have taken appropriate corrective actions for all
             applicable housing quality standards deficiencies identified during our
             inspections. If appropriate actions have not been taken, the Authority should
             abate the rents or terminate the housing assistance payments contracts.




                                              11
                         SCOPE AND METHODOLOGY

We performed our on-site audit work from February through August 2008 at the Authority’s
office in Los Angeles, California. The audit generally covered the period February 1, 2007,
through January 31, 2008. We expanded our audit period as needed to accomplish our
objectives. We reviewed guidance applicable to Section 8 housing quality standards, performed
on-site inspections with a qualified HUD OIG inspector, and interviewed applicable Authority
supervisors and staff.

To accomplish our audit objectives, we

        Reviewed applicable HUD regulations, including 24 CFR Part 982 and Housing Choice
        Voucher Guidebook 7420.10G.
        Reviewed the Authority’s administrative plan for 2007, financial independent public
        audit reports for 2006, quality control procedures and sampling methods, and staff
        listing and organizational chart.
        Interviewed personnel from the HUD Office of Public Housing, Los Angeles field
        office, to obtain background information on the Authority’s housing quality standards
        performance.
        Interviewed Authority supervisors and staff to determine their job responsibilities and
        their understanding of housing quality standards.
        Reviewed Authority data from HUD’s Public Housing Information Center system.
        Analyzed databases provided by the Authority to obtain a random sample of units.
        Conducted inspections of 68 randomly selected units with a qualified HUD OIG
        inspector and recorded and summarized the inspection results provided.

We statistically selected a sample of 68 of the program units to determine whether the Authority
ensured that its units met housing quality standards. The sample was based on the Authority’s
housing assistance payment register for one month as of January 2008. The universe contained
36,626 units that received regular housing assistance payments from the Authority as of January
2008. We obtained the sample based on a confidence level of 90 percent, a precision level of 10
percent, and an assumed error rate of 50 percent. Fifty-seven additional sample units were
selected to be used as replacements if necessary.

We initially surveyed 13 of the 68 units in our statistical sample in order to determine if the
Authority was completing timely inspections, and we determined the Authority did complete
annual inspections in a timely manner for the most part. We noted two instances of late annual
inspections for the 13 units we reviewed for timeliness for fiscal years 2006 and 2007, although
none of the 13 units were overdue at the time of our review. We determined this was not a
material issue to proceed with and eliminated that objective from our audit.




                                               12
We reviewed the sample of 68 units and determined that 19 of 43 failed units were materially
deficient and in noncompliance with housing quality standards. We determined that the 19 units
were in material noncompliance because they had 115 deficiencies that predated the Authority’s
latest inspection and created unsafe living conditions. Two of the units had deficiencies that
were noted in a prior Authority inspection report but had not been corrected.

Projecting the results of the 19 units that were in material noncompliance with housing quality
standards to the population of 36,626 Section 8 voucher program units indicates that 10,234 or
27.94 percent of these units contain deficiencies that predated the Authority’s latest inspection
and created unsafe living conditions. The sampling error is plus or minus 8.92 percent. In other
words, we are 90 percent confident that the number of units in unacceptable condition lies
between 19.03 and 36.86 percent of the population. This equates to an occurrence of between
6,968 and 13,499 units of the 36,626 units of the population.

       The lower limit is 19.03 percent x 36,626 units = 6,968 units in noncompliance with
       minimum housing quality standards.

       The point estimate is 27.94 percent x 36,626 units = 10,234 units in noncompliance with
       minimum housing quality standards.

       The upper limit is 36.86 percent x 36,626 units = 13,499 units in noncompliance with
       minimum housing quality standards.

Using the lower limit and the average annual housing assistance payments for the population
based on the Authority’s housing assistance payment register, dated February 1, 2007, through
January 31, 2008, we estimate that the Authority will spend at least $65,565,605 (6,968 units x
$9,409 average annual housing assistance payment) for units that are in material noncompliance
with housing quality standards. This estimate is presented solely to demonstrate the annual
amount of Section 8 program funds that could be put to better use on decent, safe, and sanitary
housing if the Authority implements our recommendations.

We performed our review in accordance with generally accepted government auditing standards.




                                               13
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal controls were relevant to our audit objectives:

                  Program operations - Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

                  Validity and reliability of data - Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

                  Compliance with laws and regulations - Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

                  Safeguarding resources - Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

       We assessed the relevant controls identified above.

       A significant weakness exists if internal controls do not provide reasonable assurance that
       the process for planning, organizing, directing, and controlling program operations will meet
       the organization’s objectives.




                                                14
Significant Weaknesses

     Based on our review, we believe the following item is a significant weakness:

                The Authority did not fully implement adequate controls to ensure that
                inspections of Section 8 units detected all deficiencies of housing quality
                standards.




                                              15
                                    APPENDIXES

Appendix A

                          SCHEDULE OF FUNDS
                        TO BE PUT TO BETTER USE

                  Recommendation                           Funds to be put
                      number                               to better use 1/
                         1A                                  $65,565,605


1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest subsidy costs not incurred by implementing recommended
     improvements, avoidance of unnecessary expenditures noted in preaward reviews, and
     any other savings that are specifically identified. In this instance, if the Authority
     implements our recommendations, it will cease to incur program costs for units that are
     not decent, safe, and sanitary. Instead, it will expend those funds for units that meet
     HUD’s standards. Once the Authority successfully improves its controls, this will be a
     recurring benefit. To be conservative, our estimate reflects only the initial year of this
     benefit.




                                              16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         17
18
19
Comment 2




Comment 3




            20
Comment 4




            21
22
                         OIG Evaluation of Auditee Comments

Comment 1   Since 2005, OIG has issued 5 independent audit reports for the Authority.
            Following each report, the Authority has worked with HUD to implement our
            recommendations and gain compliance with HUD rules and regulations.

Comment 2   We acknowledge that housing quality standards violations can occur after the last
            annual inspection conducted by the Authority. However, federal regulations
            require that all program housing must meet housing quality standards
            performance requirements at commencement of assisted occupancy and
            throughout the assisted tenancy. Therefore, we reported all violations identified
            at the time of our inspection so that HUD and the Authority could ensure they
            were corrected.

            We did not hold the Authority to ―an impossible standard‖, as we did not identify
            all 43 failed units as material, and we did not project funds to be put to better use
            using all 43 failed units. In order to avoid calling into question routine
            maintenance issues, our report determined the number of units that were in
            material noncompliance with housing quality standards. We cited units that had
            failing deficiencies that were present at the time of the previous inspection, and
            were therefore missed by the Authority’s inspectors and remained uncorrected.
            Thus, we were very conservative when determining a unit as materially deficient,
            so as not to hold the Authority to an unrealistic expectation.

Comment 3   The Authority’s objections to our audit methodology, process, and protocol are
            without merit as we performed the audit in accordance with generally accepted
            government auditing standards. We agree the Section 8 Management Assessment
            Program requires the Authority’s sample to be no older than three months.
            However, our audit was designed to determine whether HUD requirements have
            been followed with respect to housing quality standards as stated at 24 CFR 982
            and was not intended to follow the Section 8 Management Assessment Program
            self-assessment process.

            In conjunction with our inspections, we performed tenant interviews, consulted
            with our certified inspector/appraiser, and reviewed the Authority’s latest
            inspection reports to help us to determine whether a housing quality standards
            violation existed prior to the last inspection conducted by the Authority or had
            been identified by the Authority but not adequately corrected. Deficiencies were
            determined to have existed at the time of the Authority’s last inspection as they
            could not have reasonably deteriorated to such an extent within the time period
            between the Authority’s last inspection and our HUD OIG inspection. In the
            event we could not reasonably make that determination, we did not include the
            violation in our assessment of funds to be put to better use, and as such, we were
            very conservative in our determination of pre-existing conditions.




                                             23
            Furthermore, while we understand the City of Los Angeles has ―aging housing
            stock‖ with ―maintenance issues‖, Public Housing Authorities are held to the
            same housing quality standards nationwide, and the tenants living in the
            jurisdiction of the Housing Authority of the City of Los Angeles, deserve and are
            entitled to housing that meets the same housing quality standards as anywhere
            else in the nation.

Comment 4   We performed our inspections accurately and appropriately applied HUD’s
            housing quality standards in the same manner as we have done in audits
            throughout the country. In no instance did we apply a higher standard than is
            required by HUD’s housing quality standards. The form we used to perform our
            inspections accurately and appropriately applied HUD’s housing quality
            standards, and our inspector has years of experience conducting numerous
            housing quality standards inspections across the country. Among our inspector’s
            many inspection and appraisal certifications, there is one that shows that he is a
            certified Section 8 Housing Choice Voucher Housing Quality Standards
            specialist. Additionally, audit staff accompanied our inspector on each
            inspection, along with a housing authority inspection supervisor; and we
            evaluated the inspection results and compared the deficiencies to HUD’s housing
            quality standards.

            With respect to the Authority’s statement that ―HUD OIG has conceded that
            several deficiencies initially identified by the auditor were erroneous and the audit
            results reflect this adjustment‖, while we did agree to remove several deficiencies
            we initially identified, we did so in order to give the Authority the benefit of the
            doubt in cases where we could not be as certain as to the length of time a
            condition existed or the severity of the deficiency based on the photographic
            evidence and inspection notes – not because we deemed the deficiencies as
            ―erroneous‖ or in error. We scrutinized and reviewed conditions at the units
            where the Authority questioned our interpretation of housing quality standards in
            an effort to be as fair and conservative as possible in our estimates, and we
            eliminated some deficiencies from the audit report if we determined a more
            lenient interpretation of the housing quality standards could be reasonably
            accepted. We agree HQS inspections involve ―individual judgment on the part of
            inspectors‖, and the Housing Choice Voucher guidebook states as much,
            contributing to our decision to remove some violations. However, we could not
            reasonably remove several violations questioned by the Authority considering the
            photographic evidence, HQS requirements, and less than convincing arguments
            from the Authority’s staff. As a result, we are confident that this final audit report
            accurately and fairly depicts the conditions we found in the Authority’s units
            when we conducted our inspections.




                                             24
         Appendix C

                               SCHEDULE OF UNITS IN NONCOMPLIANCE
                                 WITH HOUSING QUALITY STANDARDS

 Item                                   Number of deficiencies per lettered category
                                                                                                                              Totals
number       A B C D E                 F G H I J K L M N O P Q R                                         S    T U V W
 1               2                                                                                                              2
 2 *           2 1   2                           1                   2                       1                                  9
 3                                         1                                                                                    1
 4 *         2                     1   1                     1                               1       1                          7
 5 *                 4         2       1   2     3   1       1       1                                                         15
 6 *         9       1         5   3   2   2     1   4       1             2        1   1    1   1   1    1                    36
 7                         1               1                                                                                    2
 8 *                       2       1                                                                                            3
 9                         1                                                                                                    1
10                   1                                       1                                                                  2
11 *         1       5     2   2   1   1   1     2                              3   4                1                         23
12 *         1             1   1       1             2                                                                          6
13                   1                                                                                                          1
14                                                           2                                                1                 3
15           3       1                           1                                                                              5
16 *                 1     3           1   1     1                                                                              7
17           2       2             1                 1                          1                                               7
18                         2               1                                                                                    3
19           1             1   1   1                                 1                                                          5
20 *                           3                             1       1     2                              1                     8

                                                 Category of deficiencies legend
         A       –       Security                    M – Smoke detectors
         B       –       Window                      N – Chimney/heating equipment
         C       –       Tub or shower in unit       O – Water heater
         D       –       Electrical                  P – Space for preparation, storage, and serving of food
         E       –       Wall                        Q – Crawl vents
         F       –       Sink                        R – Other interior hazards
         G       –       Fire exits                  S – Roof/gutters
         H       –       Ceiling                     T – Flush toilet in enclosed space
         I       –       Floor                       U – Stairs, rails, and porches
         J       –       Range/refrigerator          V – Exterior surface
         K       –       Ventilation/plumbing        W – Foundation
         L       –       Garbage and debris              *       –       Denotes unit determined to be materially deficient



                                                                          25
 Item                                         Number of deficiencies per lettered category
                                                                                                                                          Totals
number        A B C D E                     F G H I J K L M N O P Q R                                            S    T U V W
21              1 1 1 1                          1 1              1                    1 1                                                   9
22 *          2 2 3                            1                                                                                             8
23              1                                                     1                                                                      2
24 *          7 9   3 8                     3             1       2            3 1 1                              1                         39
25            1 1                                                                                                                            2
26 *          1   2                              2         1                                                                                 6
27 *            1 3 1 1                                                      1                                                               7
28                2 2 1                          1    1                                     1        1                                       9
29            1                                                                                                                              1
30 *          4 1 3 1                       1                                                                     1       1   1       1     14
31                                                                                          1                         1                      2
32                            2                                     1                                1                                       4
33 *          1        2                                            2        3                  1                                            9
34                            1                                                                                                              1
35 *                   4                                                                        1                                            5
36            1                   1         2                       1                                                     1                  6
37            1        1      1             1                                2                                                               6
38 *          1                   1                        1        1                                                                        4
39                            1                                                         1                                                    2
40 *          2               5        2    1    2    1    1                       2    1       2        1            1                     21
41 *          1               1   1    1    2         1                                 2   1                                               10
42            1                             1                                                                                                2
43                     1          1                        1                                                                                 3
 Totals       43       42    41   26   24   18   15   13   13       13       11     9   9   8   8    6   4   4    4   3   2    1      1    318


                                                      Category of deficiencies legend
          A        –        Security                      M – Smoke detectors
          B        –        Window                        N – Chimney/heating equipment
          C        –        Tub or shower in unit         O – Water heater
          D        –        Electrical                    P – Space for preparation, storage, and serving of food
          E        –        Wall                          Q – Crawl vents
          F        –        Sink                          R – Other interior hazards
          G        –        Fire exits                    S – Roof/gutters
          H        –        Ceiling                       T – Flush toilet in enclosed space
          I        –        Floor                         U – Stairs, rails, and porches
          J        –        Range/refrigerator            V – Exterior surface
          K        –        Ventilation/plumbing          W – Foundation
          L        –        Garbage and debris                  *        –       Denotes unit determined to be materially deficient




                                                                                  26
Appendix D

                                    CRITERIA

    The following sections of the Code of Federal Regulations apply to housing quality
    standards inspections:

               24 CFR 982.54(d)(22) states that the public housing authority administrative
               plan must cover policies, procedural guidelines, and performance standards
               for conducting required housing quality standards inspections.

               24 CFR 982.305(a) states that the public housing authority may not give
               approval for the family of the assisted tenancy or execute a housing
               assistance payments contract until the authority has determined that the unit
               is eligible and has been inspected by the authority and meets HUD’s housing
               quality standards.

               24 CFR 982.401(a) identifies the housing quality standards for assisted
               housing, including performance and acceptability criteria for key aspects of
               housing quality.

               24 CFR 982.401(a)(3) requires that all program housing meet housing quality
               standards performance requirements, both at commencement of assisted
               occupancy and throughout the assisted tenancy.

               24 CFR 982.404(a)(1) requires the owners of program units to maintain the
               units in accordance with HUD’s housing quality standards.

               24 CFR 982.404(a)(2) states that if the owner of the program unit fails to
               maintain the dwelling unit in accordance with HUD’s housing quality
               standards, the authority must take prompt and vigorous action to enforce the
               owner’s obligations. The authority’s remedies for such a breach of the
               housing quality standards include termination, suspension, or reduction of
               housing assistance payments and termination of the housing assistance
               payments contract.

               24 CFR 982.405(a) requires public housing authorities to perform unit
               inspections before the initial term of the lease, at least annually during
               assisted occupancy, and at other times as needed to determine whether the
               unit meets the housing quality standards.




                                           27
